SCHOOL DISTRICT OF PITTSBURGH
PITTSBURGH, PENNSYLVANIA 15213

NATIONAL SCIENCE FOUNDATION
AWARD NUMBERS ESI-9634048 AND
         ESR-0085139

    FINANCIAL SCHEDULES AND
INDEPENDENT AUDITORS’ REPORTS
             for the period
 September 1, 1996 – September 30, 2003




                                 Foxx & Company
                                 700 Goodall Complex
                                 324 West Ninth Street
                                 Cincinnati, Ohio 45202-1908
                    XXXXXXXXXXXXXX


XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XX
                                             School District of Pittsburgh
                                            Pittsburgh, Pennsylvania 15213

                                                 TABLE OF CONTENTS

                                                                                                                                    PAGE
Executive Summary

        Background ..................................................................................................................... 1

        Audit Objectives, Scope, and Methodology ................................................................... 2

        Summary of Audit Results.............................................................................................. 3

        Exit Conference .............................................................................................................. 6


Audit Findings and Recommendations

        Independent Auditors’ Report on Financial Schedules .................................................. 8

        Independent Auditors’ Report on Compliance with Laws and Regulations
          and Internal Controls Over Financial Reporting........................................................ 10

Financial Schedules and Supplemental Information

        Schedule A-1 Schedule of Award Costs - (ESI-9634048)............................................ 19

        Schedule B-1 Schedule of Questioned Costs - (ESI-9634048) ................................... 20

        Schedule A-2 Schedule of Award Costs - (ESR-0085139) .......................................... 24

        Schedule B-2 Schedule of Questioned Costs - (ESR-0085139) .................................. 25

        Schedule C-1 Summary Schedules of Awards Audited and Audit Results ................. 27

        Notes to the Financial Schedules ................................................................................. 29

Appendix A – Awardee’s Preliminary Comments to the Audit ........................................ 31

Appendix B – Awardee’s Comments to the Draft Report .................................................. 38
EXECUTIVE SUMMARY
 Award Number ESR-0085139 – NSF awarded Cooperative Agreement No. ESR-0085139 to
SDP on September 1, 2000 in the amount of $5,000,000 and included a $3,165,852 cost-share
requirement. SDP claimed $2,759,190 in NSF funding and $2,591,574 in cost sharing as of
September 30, 2003. The agreement will expire on August 31, 2006. The agreement titled
“PRIME PLUS: The Pittsburgh Urban Systemic Project (USP)” is a K-12 based program that
promotes systemic reform of science and mathematics education for all students. The USP also
includes programmatic components that seek to foster partnerships between urban school
districts and two- and four-year colleges and universities that embed research on educational
practice and learning.

AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

At the request of the NSF Office of Inspector General (OIG), Foxx & Company performed an
audit of two awards issued by the National Science Foundation to the School District of
Pittsburgh (SDP).

The objectives of our audit engagement were to:

    x Determine if the amounts on the Schedules of Award Costs (Schedules A-1 and A-2)
       present fairly in all material respects, the costs claimed on the Federal Cash Transactions
       Reports (FCTR); and that all the costs charged to the NSF awards by SDP, including cost
       sharing, were allowable, allocable and reasonable, in accordance with the applicable
       Federal cost principles and administrative requirements, and NSF award terms and
       conditions; and

    x Identify matters concerning instances of noncompliance with laws, regulations, and the
       provisions of the award agreements pertaining to the NSF awards and weaknesses in
       SDP’s internal controls over financial reporting that could have a direct and material
       effect on the Schedules of Award Costs and SDP’s ability to properly administer, account
       for, and monitor NSF awards.

Except as discussed in the following paragraph, we conducted our audit in accordance with
auditing standards generally accepted in the United States of America, Government Auditing
Standards, (1999 Revision) issued by the Comptroller General of the United States, and the
National Science Foundation Audit Guide (September 1996), as applicable. Those standards,
and the National Science Foundation Audit Guide, require that we plan and perform the audit to
obtain reasonable assurance about whether the amounts claimed to the National Science
Foundation as presented in the Schedules of Award Costs (Schedules A-1 and A-2), are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures on the Schedules of Award Costs. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial schedule presentation. We believe that our audit provides a reasonable basis
for our opinion.

The awardee failed to provide a management representative letter, although a letter was
requested on several occasions. Failure of management to provide a written management


                                                2
representation letter is considered an audit scope limitation by Statement on Auditing Standards
No. 85. Therefore, we have issued a qualified opinion on the Schedule of Award Costs.

We used non-statistical sampling to test the costs claimed by SDP for compliance with Federal
and NSF award requirements. Based on this sampling plan, questioned costs in this report may
not represent total costs that may have been questioned had all expenditures been tested. In
addition, we made no attempt to project such costs to total costs claimed, based on the
relationship of costs tested to total costs.

SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on financial reports submitted to the National
Science Foundation (NSF) as well as the cost sharing provided by the School District of
Pittsburgh (SDP) on NSF Award Nos. ESI-9634048 and ESR-0085139. These costs are shown
in the Schedule of Award Costs (Schedules A-1 and A-2) and are summarized as follows:


                                     Award            Costs      Questioned     At
           NSF Award Number          Budget          Claimed       Costs       Risk

           ESI-9634048              $3,421,924 $3,421,924        $ 813,248 $          -
            Cost Share               2,715,944 2,049,947          2,105,064           -

           ESR-0085139               5,000,000       2,759,190       96,467          -
            Cost Share               3,165,852       2,591,574            -    798,932

           Total NSF Share          $8,421,924 $6,181,114 $ 909,715 $         -
           Total Cost Share         $5,881,796 $4,641,521 $ 2,105,064 $ 798,932

Except for the $909,715 in questioned salaries and wages, fringe benefit, indirect, and participant
support costs and $2,903,996 in questioned and “at risk” cost sharing, described below, we
determined that the costs claimed by SDP for the NSF funded award expenditures appear fairly
stated and are allowable, allocable, and reasonable for both awards. NSF funded salaries and
wages and related fringe benefit costs of $894,699 were either not supported or supported with
inaccurate or untimely labor effort certifications. Also, $11,343 of indirect costs associated with
the questioned salaries and wages were questioned. In addition, $3,673 of participant support
costs were questioned because the salaries of two substitute teachers were erroneously charged to
NSF Award No. ESR-0085139. Finally, approximately $2.9 million (62 percent) of the $ 4.64
million in total claimed cost sharing was either questioned or identified as “at risk” primarily
because SDP could not provide adequate supporting documentation to evidence that the charges
benefited the NSF awards. “At-risk” cost sharing is the amount of required cost sharing that has
not been met at the time of the audit, but which the awardee still has time to meet before the end
of the award period.

SDP has two primary material internal control deficiencies that caused these questioned costs. In
general, SDP’s systems of internal controls are not adequate to properly administer, account for,



                                                 3
and monitor its NSF awards in compliance with NSF and federal requirements, in the areas
related to payroll and cost sharing. Specifically:

   x SDP does not have an adequate system for ensuring that semi-annual certifications of
      labor effort costs are completed in an accurate and timely manner, raising questions as to
      the reliability and integrity of $894,699 or 21 percent of the total salaries and wages and
      related fringe benefits claimed on both NSF awards. Specifically, we found that a)
      personnel costs were charged for an individual that no longer worked for SDP during the
      period charged; b) semi-annual certifications indicated five individuals worked on Award
      No. ESR-0085139 but were incorrectly charged to Award No. ESI-9634048; c) 20 of the
      31 certifications tested were signed from six months to over four years after the
      certification period; and d) 7 of the 20 certifications were prepared on an annual rather
      than a semi-annual basis. More than 65 percent (13 of 20) of the certifications tested
      were signed over 24 months after the certification period. In addition, SDP does not have
      a process in place to ensure that salaries and wages for hours worked charged to the NSF
      awards agree with the certifications and that revisions are made when needed to reflect
      actual costs. Because of the long period of time between the dates worked and the dates
      that the certifications were prepared, there was no assurance that salaries and wages and
      related fringe benefits charged to the NSF awards were accurate. We do not believe
      individuals can remember the projects and time periods that they worked six months to 4
      years after-the fact. Also, it appears that a number of the certifications were completed
      within six months of the start of the audit, indicating that the certifications were prepared
      only in response to the audit, rather than as part of an institutionalized internal control
      system. Accordingly, we questioned a total of $906,042 ($894,699 + $11,343) in salaries
      and wages, and the related fringe benefit and indirect costs for both NSF awards.

   x SDP’s system for accounting for cost sharing does not provide adequate assurance that
      the cost sharing amounts claimed are allowable, reasonable, or allocable to the NSF
      funded projects. In addition, there is no control procedure to ensure that the cost sharing
      is not claimed on other federal projects. As a result, the reliability and integrity of the
      cost sharing claimed by SDP on its certified cost sharing reports for both awards is
      questionable. Supporting documentation for $2,903,996 of claimed cost sharing tested,
      representing about 62 percent of the total $4.64 million claimed cost sharing on both
      awards, was not provided or the information provided did not support the cost sharing
      claimed. In addition, SDP did not submit its final cost share certification for Award No.
      ESI-9634048, even though the grant period ended in August 2002. These conditions
      exist because SDP does not have an adequate system to account for and document cost
      sharing.

The issue of completing semi-annual labor effort certifications for individuals that expended 100
percent of their time on NSF funded projects; inadequate accounting for cost share and the lack
of cost sharing documentation was brought to SDP’s attention in a prior NSF-OIG audit report in
July 1997. At that time, NSF OIG recommended that SDP prepare the labor effort certifications
at least semiannually, make necessary adjustments to reflect actual costs, and prepare a ledger
summarizing cost sharing expenses based on actual costs that were supported by documentation.
During that review the auditors were able to satisfy themselves through interviews and time and


                                                4
attendance records that the individuals were working 100 percent of the time on the NSF grants.
However, we could not verify the certifications during our current review, because alternative
documentation such as day-timers, diaries, or other forms of documentation to substantiate the
time charges were not provided or available. In the prior review, cost sharing was identified as
“at-risk” because the award periods were ongoing and not final at the time of the audit. SDF did
not take appropriate corrective action to resolve these two prior findings.

Because of the repeat findings identified in this audit, we recommend that the NSF Directors of
DIAS and DGA recognize SDP as a high-risk awardee and before NSF disburses additional
awards to SDP, NSF should ensure that SDP has implemented corrective actions to address its
grants financial management and internal control deficiencies for its payroll related and cost
sharing activities. Specifically, the NSF Directors of DIAS and DGA should ensure that SDP
develop a corrective action plan detailing specific actions it will take to address the report
findings and recommendations with identified milestone dates for implementation. The Director
of DGA should verify that these corrective actions are implemented before making additional
awards to SDP.

Specifically, to address the internal control weaknesses concerning the completion of semi-
annual certifications, we recommend that the NSF Directors of DIAS and DGA require SDP to
develop procedures for ensuring the completion of semi-annual labor effort certifications for
employees charging 100 percent of their time to federally funded projects. The procedures
should ensure that semi-annual labor effort certifications are accurately completed in a timely
manner and that revisions to estimated time percentages are made when needed to reflect actual
costs.

To address the internal control weaknesses regarding cost sharing, we recommend that the NSF
Directors of DIAS and DGA require, for future awards, that SDP develop an adequate system for
accumulating all costs incurred for cost sharing, perform a periodic review of all other federal
grants to ensure that the NSF cost sharing is not claimed on other federal grants, and require that
SDP compile and certify the remaining cost sharing amount for the final year of Award No. ESI-
9634048. SDP should ensure that all costs included in cost share are adequately documented and
that annual cost sharing certifications are submitted to NSF in a timely manner.

FOLLOW-UP OF PRIOR AUDIT FINDINGS

As previously mentioned, NSF-OIG issued an audit report in July 1997 on two prior awards to
SDP. In addition to several other findings in the report, the report disclosed that labor report
certifications were not prepared for all employees working 100 percent of their time on the NSF
awards and that the awardee could not adequately account for all its cost sharing. As a result, it
was recommended that all personnel working 100 percent of their time on federal awards
complete semi-annual certifications and the awardee adequately account for all cost sharing for
NSF funded projects. As noted in this report, SDP did not take appropriate corrective action to
resolve these two findings. In addition, SDP’s annual Single Audit for the calendar year ended
December 31, 1996, reported a finding on labor effort time certifications for the NSF awards.




                                                5
SUMMARY OF AUDITEE’S RESPONSE

The awardee responded to the draft report in a letter dated April 1, 2005, which was faxed to our
office on April 20, 2005. The awardee also provided written comments dated April 13, 2004
(Appendix A) to us after the fieldwork was completed. We included both sets of SDP comments
and our response as part of this report.

In the April 20, 2005 response the awardee stated it felt that additional fieldwork or interviews
and correspondence could remove the most serious recommendation that the Pittsburgh School
District be recognized as a high-risk awardee. The awardee also stated that it had instituted a
system-wide labor effort certification policy at the beginning of the 2004-05 school years that
collects and reviews monthly and/or semi-annual certifications for all employees related to
Federally funded programs. In addition, the awardee believed that there was information
available at the School District which would show that employees actually worked on the correct
grant and it had procedures in place to ensure that the cost sharing was not used for any other
match.

The Awardee made no mention of the cost sharing for the last year of Award No. ESI-9634048
which had not been submitted or certified to at the conclusion of the audit fieldwork.
Furthermore, the awardee did not provide a signed management representation letter as requested
in the draft report.

The awardee has had over a year to adequately address the findings in the draft report and
provide additional documentation. Accordingly, because the awardee did not provide any
additional documentation with its comments, the findings and questioned costs in the draft report
remain and are reflected in this final report. Furthermore, because of the material control
weaknesses over payroll costs and cost share, the significance of the questioned costs identified,
and because the awardee did not provide a management representation letter, the opinion in the
audit report has been qualified.

The report findings should not be closed nor should additional awards be made to SDP until NSF
verifies that all the recommendations have been adequately addressed and the proposed
corrective actions have been satisfactorily implemented. SDP’s response has been included in its
entirety in Appendix A.

EXIT CONFERENCE

A telephone exit conference was held on February 4, 2004 at the School District of Pittsburgh’s
(SDP’s) office in Pittsburgh, Pennsylvania. A detailed summary of findings was sent to SDP on
February 13, 2004. SDP provided additional information to Foxx by letter dated April 13, 2004.




                                                6
Findings and recommendations contained in this report, as well as other observations were
discussed with those attending.

Representing SDP:

Name                      Title
XXXXXXXXXXXXXXXXXXXX XXXXXXXXXXXXXXXXXXXXXXX
XXXXXX

Representing Foxx & Company:
Name                                    Title
XXXXXXXXXXXX                          XXXXXXXX




                                           7
AUDIT FINDINGS AND RECOMMENDATIONS
awardee, or (3) costs that require interpretation of allowability by the National Science
Foundation - Division of Acquisition and Cost Support (DACS). “At-risk” cost sharing is the
amount of required cost sharing that has not been met at the time of the audit that the awardee
still has time to meet before the end of the award period. The National Science Foundation will
make the final determination regarding whether such costs are allowable. The ultimate outcome
of this determination cannot presently be determined. Accordingly, no adjustment has been
made to costs claimed for any potential disallowance by NSF.

We used non-statistical sampling to test the costs claimed by SDP for compliance with Federal
and NSF award requirements. Based on this sampling plan, questioned costs in this report may
not represent total costs that may have been questioned had all expenditures been tested. In
addition, we made no attempt to project such costs to total costs claimed, based on the
relationship of costs tested to total costs.

In our opinion, except for the scope limitation resulting from the awardee failing to provide a
management representation letter, the material internal control weaknesses and the questioned
costs, the Schedules of Award Costs (Schedule A-1 and A-2) referred to above present fairly, in
all material respects, the costs claimed on the Federal Cash Transactions Reports – Federal Share
of Net Disbursements for the period September 1, 1996 to September 30, 2003 in conformity
with the National Science Foundation Audit Guide, NSF Grant Policy Manual, terms and
conditions of the NSF award requirements, and on the basis of accounting described in the Notes
to the Financial Schedules. These schedules are not intended to be a complete presentation of
financial position in conformity with accounting principles generally accepted in the United
States of America.

In accordance with Government Auditing Standards and the provisions of the National Science
Foundation Audit Guide, we have also issued a report dated February 4, 2004 on tests of SDP’s
compliance with certain provisions of laws, regulations and the NSF award terms and conditions,
and our consideration of SDP’s internal control over financial reporting. That report is an
integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of the School District of Pittsburgh’s
management, the National Science Foundation, the cognizant Federal audit agency, the Office of
Management and Budget, and the Congress of the United States, and is not intended to be and
should not be used by anyone other than these specified parties.




Foxx & Company
February 4, 2004




                                               9
Foundation Audit Guide. These compliance findings are discussed in the internal control report
under Finding Nos. 1 and 2. We considered these instances of noncompliance in forming our
opinion of whether the Schedules of Award Costs (Schedules A-1 and A-2) present fairly in all
material respects, the costs claimed by the School District of Pittsburgh on the Federal Cash
Transactions Reports for the period September 1, 1996 to September 30, 2003, in conformity
with the National Science Foundation Audit Guide, NSF Grant Policy Manual, and the Federal
and NSF award terms and conditions, and determined that this report does not affect our report
dated February 4, 2004, on the Financial Schedules.

INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of SDP is responsible for establishing and maintaining internal control. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objectives of
internal control are to provide management with reasonable, but not absolute assurance that
assets are safeguarded against loss from unauthorized use or disposition, and that transactions are
executed in accordance with management’s authorization and recorded properly to permit the
preparation of financial schedules in accordance with accounting guidance provided by NSF.
Because of inherent limitations in any internal control, misstatements due to errors or fraud may
nevertheless occur and not be detected. Also, projection of any evaluation of internal controls to
future periods is subject to the risk that procedures may become inadequate because of changes
in conditions or that the effectiveness of the design and operation of policies and procedures may
deteriorate.

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 and A-2)
for the period of September 1, 1996 to September 30, 2003, we considered SDP’s internal
control over financial reporting in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial schedules and not to provide an opinion on the internal
control. Accordingly, we do not express such an opinion.

We noted certain matters described below involving the internal control over financial reporting
and its operation that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants. Reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of the
internal control over financial reporting that, in our judgment, could adversely affect SDP’s
ability to record, process, summarize, and report financial data in a manner that is consistent with
the assertions of management in the financial schedules. Material weaknesses are reportable
conditions in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements, in amounts that would be
material in relation to the financial schedules being audited, may occur and not be detected
within a timely period by employees in the normal course of performing their assigned
functions.

Our consideration of internal control over financial reporting would not necessarily disclose all
matters related to internal control over financial reporting that might be reportable conditions,
and, accordingly, would not necessarily disclose all reportable conditions that are also considered

                                                11
to be material weaknesses. We noted the following matters involving SDP’s internal control
over financial reporting and its operation that we consider to be material weaknesses under
standards established by the American Institute of Certified Public Accountants. In addition, we
noted errors that resulted in questioned costs in Schedule A-2 in the area of participant support
costs.

Finding No. 1: Inadequate System for Obtaining Semi-annual Labor Effort Certifications

SDP does not have an adequate system for ensuring that semi-annual certifications of labor effort
charged to NSF’s awards are completed in an accurate and timely manner, raising questions as to
the reliability and integrity of $894,699 or 21 percent of the total salaries and wages and related
fringe benefits claimed on both awards.

OMB Circular A-87, Attachment B, Section 11.h(3), states that “where employees are expected
to work solely on a single Federal award or cost objective, charges for their salaries and wages
will be supported by periodic certifications that the employees worked solely on that program for
the period covered by the certification. These certifications will be prepared at least semi-
annually and will be signed by the employee or supervisory official having first hand knowledge
of the work performed by the employee.”

Semi-annual certifications for teachers who were charged 100 percent of their time to the NSF
awards either did not support hours charged to the NSF funded project or were not completed
timely. Our tests of $1,020,531 of the $4,267,214 of salaries and wages and the related fringe
benefit charges claimed found that $894,699 or 88 percent of the costs tested were either not
supported or were supported with inaccurate or untimely certifications. During the period
September 1, 1996 to September 30, 2003, approximately 22 different teachers worked on the
two NSF project awards and charged 100 percent of their time. For 9 of the employees we
reviewed 31 semi-annual and annual certifications over thirteen different periods to determine if
the certifications adequately supported the charges and were prepared timely (within six months
after the period being certified). Problems with the certifications were noted for eight of the nine
employees included in our test. About 65 percent of the 31 certifications tested were not
prepared in a timely manner. SDP did not provide alternative documentation such as day timers,
diaries or any other form of documentation to support their time charges.

Specifically, we found that a) semi-annual certifications were initially missing for two
employees, b) semi-annual certifications indicated five individuals worked on Award No. ESR-
0085139 but were incorrectly charged to Award No. ESI-9634048, c) 20 certifications were
signed from six months to over four years after the certification period, and d) seven of the 20
certifications were prepared on an annual rather than a semi-annual basis.

Following is a summary of issues noted:

a) Initially, semi-annual certifications were not provided for two of the nine employees tested
   for five semi-annual periods whose salary was charged 100 percent to Award No. ESI-
   964048. However, after we completed our audit fieldwork, SDP provided two annual
   certifications covering four semi-annual certification periods for one of the two individuals.

                                                12
   These certifications were prepared 40 and 50 months after the certification period.
   Accordingly, because the certifications were prepared so long after the certification period
   and were prepared on an annual basis, the two certifications were categorized with the late
   certifications discussed in Sections (c) and (d) below and the resulting costs were questioned.
   For the other individual, SDP stated that the employee did not work for SDP during the
   certification period even though the salary was charged to the NSF award. Since SDP did
   not submit documentation supporting that the individual worked on the NSF funded project,
   we questioned the $3,325 of wages and $698 of related fringe benefits, totaling $4,023
   charged to Award No. ESI-9634048.

b) For five employees SDP could not support the charges to the NSF award. We found that for
   five of the eighteen employees’ labor costs tested for the period February 2001 to August 31,
   2001, the certification showed that the employees worked on NSF Award No. ESR-0085139
   (Prime +). However, the salary and wages were incorrectly charged to Award No. ESI-
   9634048 (Prime), resulting in $162,370 questioned unallocable salaries and wages. SDP
   stated that these individuals actually worked on Award No. ESI-9634048, however no
   documentation was provided. SDP does not have a process in place to ensure that salaries
   and wages charged to the NSF awards agrees with the certifications and that revisions are
   made when needed to reflect actual costs. As a result, we questioned $162,370 of salaries
   and wages and $34,097 of related fringe benefits, totaling to $196,467 charged to Award No.
   ESI-9634048.

c) Semi-annual certifications were not always prepared in a timely manner. We reviewed 31
   semi-annual and annual certifications representing $1,020,531 of labor and related fringe
   benefits charged to NSF awards to determine if SDP employees were preparing certifications
   in a timely manner. We found that 20 of the 31 tested were completed six or more months
   after the certification period. More than 65 percent of the late certifications (13 out of 20)
   were signed over 24 months after the certification period. Because of the long period of time
   between the dates worked and the dates that the certifications were prepared, there was no
   assurance that salaries and wages and related fringe benefits charged to the NSF awards were
   accurate. We do not believe individuals can remember the projects and time periods that they
   worked six months to four years after-the-fact. Also, it appears that a number of the
   certifications were completed within six months of the start of the audit indicating that the
   certifications were prepared only in response to the audit rather than as part of an
   institutionalized internal control system. As a result, we questioned $574,365 of salaries and
   wages and $119,844 of related fringe benefits totaling to $694,209 charged to both NSF
   awards.

d) We noted that 7 of the 20 certifications discussed above were prepared on an annual rather
   than a semi-annual basis. The awardee could not provide an explanation for this situation.
   Because the certifications were not prepared on a semi-annual basis, the salaries and related
   fringe benefits were also questioned in accordance with OMB Circular A-87, Attachment B,
   Section 11.h(3). The $399,399 of salaries and wages and $83,873 of related fringe benefit
   costs were included in the amounts questioned in (c) above, for Award No. ESI-9634048.




                                               13
These conditions exist because SDP does not have an adequate monitoring system to ensure that
employees working on NSF projects 100 percent of the time, complete semi-annual certifications
within a reasonable time after the end of the six-month certification period. SDP also does not
have a system to ensure that salaries and wages charged to NSF awards agree with the
certifications. These conditions still exist currently even though SDP underwent a prior audit in
1997 where the lack of certifications for persons charged 100 percent to the NSF award was
identified and recommendations were made for SDP to prepare the certifications at least
semiannually and make necessary adjustments to reflect actual costs. During that review the
auditors were able to satisfy themselves through interviews and time and attendance records that
the individuals were, in fact, working 100 percent of the time on the NSF grants. However, we
could not verify that the certifications were accurate during our current review, because
alternative documentation such as day-timers, diaries, or other forms of documentation to
substantiate the time charges was not provided or available. Therefore, we questioned a total of
$740,060 in salaries and wages, $154,639 in related fringe benefit costs and $11,343 in related
indirect costs for both NSF awards. SDP officials could not explain why semi-annual
certifications were not completed, were coded to one job but charged to another, or not
completed timely.

Recommendation No. 1:

a. Because of the repeat findings identified in this audit, we recommend that the NSF Directors
   of DIAS and DGA recognize SDP as a high-risk awardee and before NSF disburses
   additional awards to SDP, NSF should ensure that SDP has implemented corrective actions
   to address its grants financial management and internal control deficiencies for payroll
   related and cost sharing activities. Furthermore, the NSF Directors of DIAS and DGA
   should ensure that SDP develops a corrective action plan detailing specific actions it will take
   to address this report’s findings and recommendations with identified milestone dates for
   implementation. The Director of DGA should verify that these corrective actions are
   implemented before making additional awards to SDP.

b. We recommend that the NSF Directors of DIAS and DGA require SDP to develop
   procedures for monitoring the completion of semi-annual certifications for employees
   charging 100 percent of their time to federally funded projects. The procedures should
   ensure that semi-annual certifications are accurately completed within 30 days of the end of
   the reporting period and that revisions are made when needed to reflect actual costs.

Awardee’s Comments:

The awardee indicated in its response to draft report that additional fieldwork, interviews, or
correspondence could remove the most serious recommendation that SDP should be recognized
as a high-risk awardee. According to the response, new certification policy had been instituted
that collected and reviewed monthly and/or semi-annual certifications for all employees working
on federally funded programs. As for the employee effort questioned in the draft report, the
District had no doubt that the employees were sure of what they worked on since that was the
total of their professional effort, even if the certifications were not signed timely. No additional
documentation to support the labor charges was provided.

                                                14
Auditor’s Response

The awardee had over a year to provide additional documentation. Since no additional
documentation was provided in response to the draft report, the finding remains unchanged.

Finding No. 2: Cost Sharing – SDP Could Not Support its Cost Sharing in its Records

SDP’s system for accounting for cost sharing does not provide adequate assurance that the cost
sharing amounts claimed are allowable, reasonable, and allocable to the NSF funded projects.
The cost sharing procedures utilized by SDP identified the types of costs that are considered cost
sharing. However, the cost amounts included on the cost sharing schedules, in most cases, could
not be traced to adequate supporting documentation, nor are procedures performed by SDP to
provide assurance that portions of the cost sharing amounts are not already claimed on other
federal programs. As a result, the reliability and integrity of amounts SDP claimed on its
certified reports to NSF for both awards are questionable and the proportionate share of project
costs that SDP agreed to share with NSF may not be met. Therefore, we questioned or identified
as “at-risk” $2,903,996 (62 percent) of the $4.64 million in total claimed cost sharing. We
identified $798,932 of the cost sharing claimed on Award No. ESR-0085139 as “at-risk” because
the award had not ended at the time of our audit and SDP still had time to provide the required
cost sharing. Furthermore, at the conclusion of our fieldwork in February 2004, SDP had not
submitted the final cost sharing certification for Award No. ESI-9634048, although the award
had expired 18 months earlier.

NSF’s Grant Policy Manual (GPM) Section 333, NSF Cost Sharing Requirements, requires a
grantee to maintain records of all costs claimed as cost sharing and those records are subject to
audit. Those regulations also state that cost sharing expenses must not be included as
contributions to any other federal award or funded by any other federal award. Also, OMB
Circular A-110, Section 23, Cost Sharing or Matching, states that cost sharing expenses must be
verifiable from the recipient’s records and be necessary and reasonable for program and efficient
accomplishment of project or program objectives and allowable under the applicable cost
principles. In addition, the award letter for Award No. NSF ESI-9634048, dated September 6,
1996 stated, “the amount of cost sharing must be documented (on an annual and cumulative
basis) and reported to NSF and certified by an authorized institutional representative. These cost
sharing reports must be included as part of the annual progress reports and final project reports.”

Although SDP’s accounting system captures all expenses, it does not separately identify and
track those expenses incurred as cost sharing. Instead, SDP officials use a manual system to
identify specific cost share amounts for each award. Annually, a spreadsheet is created by SDP
to reflect the cost sharing provided for the year. SDP officials stated that cost sharing amounts
are extracted from the accounting system and other supporting documentation. However, SDP
was unable to provide adequate documentation to support its cost sharing claimed. As such, we
were unable to verify that SDP had, in fact, contributed the cost sharing amounts that it claimed.

Specifically, we found that: a) salaries and wages claimed as cost sharing were not always
supported by labor effort reports, time sheets, or semi-annual certifications, as applicable, b)
classroom support costs claimed were not always supported by “logs or sign-in sheets” as

                                                15
required by SDP’s policies and procedures, c) other costs claimed as cost sharing were not
adequately supported by the documentation provided by SDP and d) SDP did not compile or
report the final year of cost sharing for Grant No. ESI-9634048. As a result, much of the cost
sharing claimed was questioned. Following are detailed summaries of the problems noted:

a) SDP did not have timesheets or other documentation that adequately supported the
   percentage of time devoted to the NSF project for salaries that were recorded as cost sharing
   at less than 100 percent of the employees’ annual salary. Also, SDP did not have semi-
   annual certifications for employees whose salaries were charged at 100 percent to the NSF
   award as cost sharing. Inadequate time tracking reports for employees working less than 100
   percent on the NSF project and a lack of certifications for employees devoting 100 percent of
   their time to the NSF project has resulted in questioning a total of $824,340 in salaries and
   wages and $176,052 in related fringe benefits claimed as cost sharing.

b) SDP did not provide the logs or sign-in sheets to support “classroom support” time charged
   to cost sharing. SDP included as cost sharing “classroom support,” time incurred by regular
   district teachers for meetings and in-service training specific for math and science teachers.
   According to SDP policy classroom support was to be supported by either “logs”
   documenting the meeting, purpose, attendees, date and time or “sign-in sheets” documenting
   the in-service/meeting, attendees, date and time. To determine the cost sharing amount, the
   SDP calculated the number of math and science teachers attending and the hours for each of
   the meetings and/or in-services. The annual cumulative hours were converted to full-time
   teacher equivalent hours and a cost was assigned based on SDP’s average annual teacher
   salary. However, for the cost sharing claimed by SDP, cumulative hours could not be
   determined or the supporting documents provided indicated fewer hours than SDP claimed.
   Logs or sign-in sheets did not support the meeting and in-service time reported on summaries
   provided by SDP. Because of missing or incomplete summaries of “classroom support”
   time, we questioned $894,291 of salaries and wages, $251,637 of fringe benefits and $32,904
   of applicable indirect cost which was included as cost sharing.

c) SDP provided documentation for other cost sharing activities that did not agree with the cost
   sharing amounts charged to NSF. For example, cost sharing claimed for a parent guide was
   shown as $11,325 but the invoice was for $550 or $10,825 more than the invoice cost of
   guide. In another example, SDP included as cost sharing, the funds it received from a non-
   profit foundation for the payment of resource teachers. The supporting accounting ledger
   indicated that the cost sharing reported by SDP exceeded the actual funds provided by the
   non-profit foundation for these teachers by a total of $47,950, consisting of salaries and
   wages of $41,030 and related fringe benefits of $6,920.

d) Our audit disclosed that SDP had not provided the final cost sharing certification for Award
   No. ESI-9634048 for the final period of the award July 1, 2000 – August 31, 2001. An
   amendment dated October 1, 2001, extended the award to August 31, 2002. The last cost
   sharing certification sent to NSF for Award No. ESI-9634048 was dated August 8, 2000 and
   was for the period October 1, 1999 through June 30, 2000. As of the completion of our audit
   fieldwork in February 2004, SDP had not compiled or certified the final year of cost sharing
   for this award or provided the remaining $665,997 of its cost sharing commitment.

                                               16
   Accordingly, we questioned the $665,997 of unmet cost sharing. The officials at SDP stated
   that they are aware of this unmet commitment, but did not provide a reason for not providing
   the cost sharing or submitting the certification.

As previously mentioned, SDP was not performing steps to ensure that the costs claimed as cost
sharing on the NSF awards were not being charged as direct or matching funds for other federal
programs. SDP officials informed us, when asked, that there were very few federal awards that
required matching funds, and therefore, they were confident that the NSF cost sharing was not
being used for matching or direct costs for other federal awards. However, because SDP’s cost
sharing consisted of the cost of many SDP teachers attending work shops and in-service days, it
would be very difficult to assume that the same expenditures for NSF award cost sharing were
not being directly funded by other federal awards or being claimed as cost sharing without
performing a review of all federal awards. SDP had not performed such a review.

All of these conditions exist because SDP does not have an adequate system to account for cost
sharing. Although the same cost sharing issues had been brought to SDP’s attention in a
previous OIG audit conducted in 1997, SDP failed to address this issue. As a result, a total of
$2,903,996 of cost sharing claimed was questioned or identified as “as-risk” for both grants.

Recommendation No. 2:

We recommend that NSF’s Directors of DIAS and DGA require, for current and future awards,
that SDP develop an adequate system for tracking all costs incurred for NSF cost sharing,
perform a periodic review to ensure that the cost sharing for the NSF awards is not claimed on
other federal grants, and require that SDP compile and certify the remaining cost sharing amount
for the final year of Award No. ESI-9634048. SDP should ensure that all costs included in cost
share are adequately documented and that cost sharing certifications are submitted to NSF in a
timely manner.

Awardee Comments:

Regarding tracking its cost sharing, the District indicated that it tracks all costs, both NSF funded
and cost sharing, in the budgets for which they are incurred. The budget staff and the
Developmental staff work together to ensure that funds are not applied to more than one match.
The funds that are used as cost share are tracked from reports of the separate budgets in which
the cost are incurred.

Auditor’s Response:

The Awardee’s comments did not adequately address the finding. Specific information
concerning how the NSF cost sharing is separately tracked and the additional supporting
documentation was not provided. Therefore, the report findings remain as stated in the draft
report.

We considered these internal control weaknesses and non-compliance issues in forming our
opinion of whether Schedules A-1 and A-2 are presented fairly in all material respects, in

                                                 17
conformity with National Science Foundation award terms and conditions, and determined that
this report does not affect our report dated February 4, 2004 on the Schedules of Award Costs.

This report is intended solely for the information and use of the School District of Pittsburgh’s
management, the National Science Foundation, the Office of Management and Budget, and the
Congress of the United States, and is not intended to be and should not be used by anyone other
than these specified parties.




Foxx & Company
February 4, 2004




                                               18
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
                                                                               SCHEDULE A-1


                              SCHOOL DISTRICT OF PITTSBURGH
                                PITTSBURGH, PENNSYLVANIA

         NATIONAL SCIENCE FOUNDATION AWARD NUMBER ESI-9634048

                                   SCHEDULE OF AWARD COSTS

                         For the period September 1, 1996 to August 31, 2002
                                              FINAL

                                                                                       Schedule
                                                             (A)                           B
                     Cost                   Approved       Claimed       Questioned    Note
                   Category                  Budget         Costs          Costs       Reference
    Direct costs:
       Salaries and wages                     XXXXXX        XXXXXX        $ 662,732    Note B-1a
       Fringe benefits                           XXXX          XXXX         139,173    Note B-1a
       Travel                                    XXXX          XXXX               -
       Participant support costs                 XXXX          XXXX               -
       Materials and supplies                    XXXX          XXXX               -
       Publications costs                      XXXXX              XX              -
       Consultant costs                          XXXX          XXXX
          Total direct costs                  3,361,648     3,361,648        801,905

    Indirect costs (B)                           60,276        60,276         11,343   Note B-1b

          Total direct and indirect costs    $ 3,421,924   $ 3,421,924   $   813,248

    Cost sharing                             $ 2,715,944   $ 2,049,947   $ 2,105,064   Note B-1c

(A) The total costs claimed agree with the total expenditures reported on the Federal Cash
    Transactions Report - Federal Share of Net Disbursements as of September 30, 2002.
    Claimed costs reported above are taken directly from the awardee’s books of accounts.

(B) The indirect cost allowance is at a predetermined fixed rate of 2.34 percent, to be applied to a
    direct cost base, which excludes capital items, sub awards and participant support costs.




                                                   19
                                                                                           SCHEDULE B-1


                            SCHOOL DISTRICT OF PITTSBURGH
                              PITTSBURGH, PENNSYLVANIA

        NATIONAL SCIENCE FOUNDATION AWARD NUMBER ESI-9634048

                            SCHEDULE OF QUESTIONED COSTS

                       For the period September 1, 1996 to August 31, 2002

                                                 FINAL

Note B-1a Salaries and Wages and Fringe Benefits

The $801,904 questioned represents the following:

                  a.    Missing Semi-annual Certifications                        $4,023
                  b.    Cost Charged to Wrong Project                            196,467
                  c.    Semi-annual Certifications not completed timely          601,415
                            Total                                               $801,905

a. The $4,023 questioned represents salaries and related fringe benefits for a missing semi-
   annual certification. SDP could not provide semi-annual certifications for one employee
   whose salary was charged 100 percent to the NSF award. According to OMB Circular A-87,
   Attachment B, Section 11.h(3) semi-annual certifications must be completed for individuals
   working solely on a federal program. As a result, we questioned $3,325 of salaries and $698
   of related fringe benefits at a rate of 21 percent, calculated as follows:

                                                                                    Fringe
                                                                  Salary for       Benefits at
               Employee*                       Period             the Period         21%
            XXXX                          08/01/00-12/31/00             3,325             698
                                                       Total          $ 3,325           $ 698

           * The line number refers to the schedule prepared by SDP. The identity of the individual was
           provided to SDP with the draft report.

b. The $196,467 questioned represents $162,370 of salaries and $34,097 of related fringe
   benefits for the amounts charged for five individuals that apparently worked on the other
   grant, PRIME+. Our tests of semi-annual certification revealed that five semi-annual
   certifications for the period February 2001 through August 31, 2001 indicated that the
   employees worked on PRIME+, NSF Award No. ESI-0085139. Because the costs were
   charged to this project, PRIME, the costs have been questioned.



                                                  20
   Following is a calculation of the cost questioned:

                                                  Salary for the    Fringe Benefits
                          Employee*                  Period             at 21%
                   XXXX                                $ 32,100             $ 6,741
                   XXXXX                                  27,640              5,804
                   XXXXX                                  33,630              7,062
                   XXXXX                                  33,630              7,062
                   XXXXX                                  35,370              7,428
                                      Total            $162,370             $34,097

                  * The line number refers to the schedule prepared by SDP. We have excluded the employees
                  name from the report for privacy purposes. A list of employees corresponding to the line
                  numbers was provided to the awardee with the draft report.

c. The $601,415 questioned represents $497,037 of salaries and $104,378 of related fringe
   benefits for employees who signed their certifications six or more months after the
   certification period. We found that 15 of the 20 (75 percent) employee certifications
   reviewed by us for the award period were signed six months to over four years after the
   period being certified. In addition, instead of a 6-month certification we found seven annual
   certifications were prepared.

    (The table below provides the detail, with the “Number of Months” indicating the number of
     months after the period being certified was signed by the employee.)

                                                 Certification
                         Certification         Date      Number    Salary for   Fringe Benefits
       Months Employee      Period            Signed     Months    The Period       (21%)
        6-12 XXXX      07/01/96-12/31/96      XXXXX         12       $ 21,673         $ 4,551
              XXXX     01/01/97-06/30/97      XXXXX          6           36,977          7,765
              XXXX     07/01/96-12/31/96      XXXXX         12          14,304           3,004
              XXXX     01/01/97-06/30/97      XXXXX          6          24,684           5,184

        25-36 XXXXX      02/01/01-08/31/01    XXXXX       26            32,100             6,741
              XXXXXX     02/01/01-08/31/01    XXXXX       26            27,640             5,804
              XXXXXX     02/01/01-08/31/01    XXXXX       26            33,630             7,062
              XXXXXX     02/01/01-08/31/01    XXXXX       27            35,370             7,428

        37-48 Line 10   08/01/99-7/31/00 XXXXX            42            47,290             9,931
              Line 6&19 08/01/99-06/30/00 XXXXX           40            66,140            13,890

        49-60 XXXX       08/01/98-07/31/99    XXXXX       54            45,300             9,513
              XXXXX      08/01/98-07/31/99    XXXXX       51            51,572            10,830
              XXXXX      08/01/98-07/31/99    XXXXX       51            64,358            13,515
              XXXXX      08/01/98-07/31/99    XXXXX       51            59,382            12,470
              XXXXXX     08/01/98-07/31/99    XXXXX       51            65,357            13,724

               Total                                                    625,777          131,413
               Less amounts questioned twice (see*)                    (128,740)         (27,035)
               Total questioned                                      $ 497,037         $ 104,378

                                                 21
        * The salaries and wages for these employees for this period are also questioned in (b) above
          because the certifications indicated they worked on the other grant, PRIME+. Therefore, these
          amounts have been subtracted from the total questioned costs.

     It appears that the majority of the above certifications were signed in anticipation of the
     audit. We believe that it is unreasonable to believe that individuals can remember what
     projects worked on six months to four years after-the-fact. Accordingly, we have
     questioned these costs in accordance with OMB Circular A-87.

Note B-1b Indirect Costs

The $11,346 questioned represents the difference between the indirect costs claimed and the
calculated allowable indirect costs. The NSF award included an indirect cost rate of 2.34 percent
applied to direct cost less participant support costs. The 2.34 percent rate applied to the direct
costs incurred less participant support costs and questioned direct costs, resulted in an allowable
indirect cost of $48,933. Indirect costs claimed by SDP were $60,276, resulting in a difference
of $11,346 in questioned costs. The $11,343 questioned was calculated as follows:

                         Direct Cost Incurred                       $     3,361,648
                          Less: Participant support                        (468,570)
                          Less: Questioned cost                            (801,905)
                             Allowable direct costs                       2,091,173
                             Indirect cost rate                               2.34%
                             Acceptable indirect cost                        48,933
                             Amount claimed                                  60,276
                             Amount questioned                      $        11,343

Note B-1c Cost Sharing

The $2,105,064 questioned represents the following:

a.    $419,114 No time sheets or other supporting documentation for individuals charging less
               than 100 percent to the NSF funded project

b.     182,659 Semi-annual certifications for salaries and wages not provided for one employee

c.     804,390 Unsupported classroom time meetings and in-service activities

d.      32,904 Indirect costs applicable to questioned cost

e.     665,997 Unsupported cost sharing not compiled or certified to NSF as required by award

     $2,105,064 Total Questioned




                                                   22
a. The $419,114 questioned represents $342,841 of salaries and fringe benefits of $76,273
   which were not adequately supported. We found that SDP did not have timesheets or
   other supporting documentation that adequately supported the percentage of salaries for
   employees working less than 100 percent on the NSF. For two employees, SDP claimed
   that the employees were devoting time to other projects and the employees maintained
   activity logs. However, SDP was unable to provide a summary that supported the
   percentage used to allocate the NSF portion. Accordingly, the $419,114 was questioned
   as unsupported.

b. The $182,659 questioned represents salary costs of $144,800 and related fringe benefits
   of $37,859 for an employee that did not complete semi-annual certifications. SDP did
   not have semi-annual certifications for one employee whose salary was charged 100
   percent to the NSF award for the period 1998 through 2000.

c. The $804,390 questioned represents $629,330 of salaries and $175,060 of fringe benefits
   for classroom time reported. SDP could not support the cumulative “classroom time”
   hours or the supporting documents provided indicated fewer hours than SDP claimed for
   cost sharing. The questioned costs are based on the unsupported FTE multiplied by the
   average teacher salary for a teacher in the School District of Pittsburgh. In addition,
   SDP’s logs and/or sign in sheets did not support meeting and in-service time reported on
   summaries provided by SDP for classroom support cost sharing claimed, the salaries and
   related fringe benefits have been questioned as unsupported.

d. The $32,904 questioned represents the application of the approved indirect rate of 2.34
   percent to the questioned salary and fringe benefit cost as follows:

                                      $1,406,163
                                            2.34%
                                      $ 32,904

e. The $665,997 represents the cost sharing amount that the awardee was to incur in the
   final year of the award. At the time of our audit, February 2004, the awardee had neither
   compiled the cost sharing nor submitted a cost sharing certification for the $665,997 of
   cost sharing to NSF. Because the grant period had been completed for over 1.5 years at
   the time of our audit, we have questioned the $665,997 as unsupported.




                                         23
                                                                                               SCHEDULE A-2


                                 SCHOOL DISTRICT OF PITTSBURGH
                                   PITTSBURGH, PENNSYLVANIA

            NATIONAL SCIENCE FOUNDATION AWARD NUMBER ESR-0085139

                                        SCHEDULE OF AWARD COSTS

                     For the interim period September 1, 2000 to September 30, 2003
                                               INTERIM

                                                               (A)                                      Schedule B
                 Cost                    Approved            Claimed       Questioned                      Note
               Category                   Budget              Costs          Costs          At Risk*    Reference
Direct costs:
   Salaries and wages                     XXXXXX              XXXXXX         $ 77,328           -       Note B-2a
   Fringe benefits                           XXXX                XXXX          15,466           -       Note B-2a
   Permanent equipment                            X               XXX               -           -
   Travel                                    XXXX                XXXX               -           -
   Participant support costs              XXXXXX                 XXXX           3,673           -       Note B-2b
   Materials and supplies                    XXXX                XXXX               -           -
   Publications costs                        XXXX                 XXX               -           -
   Consultant costs                          XXXX                XXXX               -           -
   Subawards                                 XXXX                XXXX               -           -
      Total direct costs                  4,919,855           2,714,025        96,467           -
                                                                                                -
Indirect costs (B)                            80,145             45,165                 -       -       Note B-2c
                                                                                                -
      Total direct and indirect costs     $ 5,000,000        $ 2,759,190      $ 96,467          -

Cost sharing                              $ 3,165,852        $ 2,591,574                    $ 798,932   Note B-2d

 * “At-risk” cost sharing is the amount of required cost sharing that had not been achieved at the
   time of the audit SDP still has time to meet the required cost share before the end of the award
   period.

 (A) The total costs claimed agree with the total expenditures reported on the Federal Cash
     Transactions Report - Federal Share of Net Disbursements as of September 30, 2003.
     Claimed costs reported above are taken directly from the awardee’s books of accounts.

 (B) The indirect cost allowance is at a predetermined fixed rate of 2.22 percent, to be applied to a
     direct cost base, which excludes capital items, sub awards and participant support costs.




                                                        24
                                                                                 SCHEDULE B-2


                              SCHOOL DISTRICT OF PITTSBURGH
                                PITTSBURGH, PENNSYLVANIA

          NATIONAL SCIENCE FOUNDATION AWARD NUMBER ESR-0085139

                              SCHEDULE OF QUESTIONED COSTS

                    For the period September 1, 2000 to September 30, 2003


Note B-2a Salaries and Wages and Fringe Benefits

The $92,794 questioned represents salaries and wages of $77,328 and related fringe benefits of
$15,466, for five of the eleven certifications that were not completed for six or more months after
the certification period. As a result, there was no assurance that salaries and wages were
adequately supported by valid documentation. Two of the five certifications were signed over 24
months after the certification period. The table below provides the detail, with the “Number of
Months” indicating the number of months after the period that the certification was signed by the
employee.

                                                                             Salary for    Fringe
                                                            Date    No. of      the       Benefits at
 Months      Employee*            Certification Period     Signed   Months    Period        20%
  6-12     XXXX                    08/01/02-01/31/03       XXXX      12       $ 2,260        $ 452

  13-24    XXXX                    02/01/02-08/31/02       XXXX       15        22,050         4,410
           XXXX                    08/01/01-01/31/02       XXXX       22        17,400         3,480

  25-36    XXXX                    02/01/01-8/31/01        XXXX       27        21,025         4,205
           XXXX                    08/01/00-01/31/01       XXXX       34        14,593         2,919

           Total questioned                                                   $ 77,328      $ 15,466

 * The line number refers to a schedule prepared by SDP.

The questioned fringe benefits were calculated using a rate based on the actual fringe benefits
claimed by SDP. The calculated rate applied to the NSF award was 20 percent (actual fringe
benefits claimed of $283,254, divided by actual salaries and wages claimed of $1,457,839). The
total questioned salaries and wages of $77,328 above; multiplied by the 20 percent rate equals
the questioned fringe benefits of $15,466.




                                                   25
Note B-2b Participant Support

The $3,673 questioned represents a coding error for substitute teachers. Participant support costs
included the cost of two substitute teachers that were not replacing teachers assigned to the NSF
award or to activities related to the NSF award. SDP acknowledged that these substitute teachers
were incorrectly coded and charged to the NSF award. SDP prepared a journal entry to remove
the costs from the NSF award account after our field work.

Note B-2c Cost Sharing

The $798,932 of cost sharing “at risk” represents the following:

        a.     $284,829    Semi-annual certifications for one employee not provided
        b.      113,790    Supporting documentation did not support hours
        c.      341,538    Unsupported meeting and in-service activities
        d.       47,950    Unsupported resource teacher salaries
        e.       10,825    Unsupported other costs
               $798,932    Total questioned

   a. The $284,829 questioned represents unsupported salaries of $250,499 and related fringe
      benefits of $34,330. Our audit revealed that SDP did not have semi-annual certifications
      for one employee whose salaries were charged 100 percent to the NSF award for the
      period 2000 through 2004.

   b. The $113,790 represents $86,200 of salary and $27,590 of related fringe benefits for
      unsupported labor hours claimed as cost sharing. SDP could not support the cumulative
      hours or the supporting documents provided indicated fewer hours than SDP claimed for
      cost sharing.

   c. The $341,538 questioned represents salary costs of $264,961 and related fringe benefits
      of $76,577 for classroom support and in-service time. We found that SDP’s logs or sign-
      in sheets did not support meeting and in-service time reported on summaries provided by
      SDP for classroom support cost sharing claimed.

   d. The $47,950 represents $41,030 of salaries for resource teachers and $6,920 of related
      fringe benefits for the difference between SDP’s claimed salaries for resource teachers
      and actual expenditures for resource teachers SDP claimed $757,387 for resource
      teachers. However, the actual expenditures for resource teachers was $716,357. The
      difference of $41,030 is questioned.

   e. The $10,825 questioned represents the difference between the actual cost of $550
      supported by an invoice for the development of interactive parent documents, and the
      amount claimed by SDP for cost sharing of $11,375.

Because the award had not been completed at the time of our field work, the $798,932 of
claimed cost share is considered “at risk”. The awardee has time to either resolve the above cost
sharing issues, or provide other cost sharing to satisfy the award requirements.

                                                26
                                                                           SCHEDULE C-1


                       SCHOOL DISTRICT OF PITTSBURGH
                         PITTSBURGH, PENNSYLVANIA

          NATIONAL SCIENCE FOUNDATION AWARD NUMBERS
                    ESI-9634048 AND ESR-0085139

SUMMARY OF SCHEDULES OF AWARDS AUDITED AND AUDIT RESULTS

               For the period September 1, 2000 to September 30, 2003


Summary of Awards Audited

       Award Number                    Award Period                    Audit Period
        ESI-9634048                  09/01/96 – 08/31/02            09/01/96 – 08/31/02
        ESR-0085139                  09/01/00 – 08/31/05            09/01/00 – 09/30/03

        Award Number                  Type of Award                  Award Description
 ESI-9634048                 Grant                            Pittsburgh Reform in
                                                              Mathematics Education : PRIME
 ESR-0085139                 Cooperative Agreement            PRIME Plus : The Pittsburgh
                                                              Urban Systemic Project

Summary of Questioned and Unresolved Costs by Award

           NSF Award
              Number        Award Budget         Claimed Costs     Questioned Costs
        ESI-9634048          $ 3,421,924           $ 3,421,924          $ 813,248
        ESR-0085139              5,000,000             2,759,190             96,467
        Total                $ 8,421,924           $ 6,181,114          $ 909,715




                                           27
Summary of Questioned Cost by Explanation

                                                             Questioned &
                                                               “at risk”        Internal
                         Condition                               Cost           Control       Non-
                                                               Amount          Weaknesses   Compliance
   Unsupported Salaries – no certifications                     $      3,325      Yes          Yes
   Unsupported Salaries – do not agree with certification            162,370      Yes          Yes
   Unsupported Salaries – certification signed late                  574,365      Yes          Yes
   Fringe Benefits Applicable to Questioned Salaries                 154,639      Yes          Yes
   Participant Support Coding Error                                    3,673      Yes          Yes
   Indirect Costs in Excess of Allowable                              11,343      Yes          Yes
   Inadequate Support for Cost Sharing                             1,770,486      Yes          Yes
   Fringe Benefits Related to Cost Sharing                           434,609      Yes          Yes
   Cost Sharing Certification Not Submitted                          665,997       No          Yes
   Indirect Costs Applicable to Questioned Cost sharing               32,904       No          Yes
     Total Questioned and “at risk” Costs                      $ 3,813,711

Summary of Internal Control Weaknesses and Non-Compliance Issues

                                                                                   Material Weakness,
                                                             Non-Compliance or   Reportable Condition or
                        Condition                             Internal Control        Other Matter
   Inadequate Monitoring of Semi-annual Certification       Non-Compliance and   Material Weakness
   Process                                                  Internal Control
   Inadequate System for Accounting for Cost Sharing        Non-Compliance and   Material Weakness
   and Cost Sharing Certification Not Submitted             Internal Control




                                                     28
                                School District of Pittsburgh
                                Notes to Financial Schedules

                           September 1, 1996 to September 30, 2003


Note 1: Summary of Significant Accounting Policies

Accounting Basis

The accompanying financial schedules have been prepared in conformity with National Science
Foundation (NSF) instructions. Schedules A-1 and A-2 have been prepared from the reports
submitted to NSF and information obtained from the accounting records maintained for the grant
award by SDP. The basis of accounting utilized in preparation of these reports differs from
generally accepted accounting principles. The following information summarizes these
differences:

   A.    Equity

         Under the terms of the award, all funds not expended according to the award agreement
         and budget at the end of the award period are to be returned to NSF. Therefore, the
         awardee does not maintain any equity in the award and any excess cash received from
         NSF over final expenditures is due back to NSF.

   B.    Equipment

         Equipment is charged to expense in the period during which it is purchased instead of
         being recognized as an asset and depreciated over its useful life. As a result, the
         expenses reflected in the statement of award costs include the cost of equipment
         purchased during the period rather than a provision for depreciation.

         Except for awards with nonstandard terms and conditions, title to equipment under NSF
         awards vests in the recipient, for use in the project or program for which it was
         acquired, as long as it is needed. The recipient may not encumber the property without
         approval of the federal awarding agency, but may use the equipment for its other
         federally sponsored activities, when it is no longer needed for the original project.

   C.    Inventory

         Minor materials and supplies are charged to expense during the period of purchase. As
         a result, no inventory is recognized for these items in the financial schedules.

   D.    Federal Income Tax

         SDP has no Federal income tax liability.

                                            29
                                 School District of Pittsburgh
                                 Notes to Financial Schedules

                          September 1, 1996 to September 30, 2003


Note 2: NSF Cost Sharing and Matching

The following represents the cost share requirements and actual cost share as of September 30,
2003:

                                                                             Actual             Actual
                          Cost          Actual Cost     Unsupported         Supported         Cost Share
                         Share            Share             Cost               Cost          Over/(Under)
    Award Number        Required         Claimed           Share              Share            Required

  ESI-9634048           $ 2,715,944     $ 2,049,947         $ 2,105,064      $ 610,880       $ (2,105,064)

  ESR-0085139             3,165,852       2,591,574             798,932        1,792,642         (1,373,210)

   Total                $ 5,881,796     $ 4,641,521         $ 2,903,996      $ 2,403,522     $ (3,478,274)


See Finding and Recommendation No. 2 on Financial Management in the Independent Auditor’s
Report on Compliance with Laws and Regulations and Internal Controls.

Note 3: Indirect Cost Rates

  Award Number     Indirect Cost Rate                                     Base
  ESI-9634048            2.34%           Direct costs less capital items, sub awards and participant support
  ESR-0085139            2.22%           Direct costs less capital items, sub awards and participant support




                                                30
         APPENDIX A

AWARDEE’S COMMENTS TO REPORT
                                                                                  APPENDIX A

Summary of Awardee’s Interim Response and Auditor’s Comments to Audit Results

The awardee provided the following information after the conclusion of the fieldwork in a letter
dated April 13, 2004:

a. Two annual time certifications for one of the two individuals that did not have support for the
   time charged to the NSF award were provided. (The time certifications were completed 40
   and 50 months, respectively, after the certification period.) SDP stated that the other
   individual was not employed by SDF during the time period, even though she received a final
   check in September 2000 for prior work.

b. SDP stated that the five individuals that had time certifications that showed they had worked
   on Award No. ESR-0085139 (PRIME +) actually worked on Award No. 9634048 (PRIME).
   Because PRIME + was really a continuation of PRIME and the awards overlapped, the work
   was really the same. SDP stated that their error was understandable and that there was
   documentation in their offices that supported that these five individuals worked on PRIME
   and that the time recorded in the accounting records for the Prime award was correct.

c. SDP stated that it had documentation in their offices that supported that the individuals that
   had completed the time charges in an untimely manner had actually worked on the NSF
   funded projects. SDP also stated that this problem had been corrected with the new NSF
   award (Prime Plus) and the time certifications were now timely.

d. SDP acknowledged that the two substitute teachers should not be charged to participant
   support.

e. SDP provided documentation supporting the consultant costs questioned at the end of
   fieldwork.

f. SDP stated that most of the questioned cost share related to the first two years of Award No.
   ESI-9634048. The records for these years were not very good. SDP stated that it is
   addressing some of these issues in the final wrap up of Award No. ESI-963048. Costs that
   can’t be supported will not be included in the final cost share for this award.

Action Taken on Awardee’s Information Provided after Fieldwork

With the exception of the consultant costs questioned in the exit conference, we have not revised
the questioned costs based on SDP’s submission of additional information. We have accepted
the consultant costs. Because the two time certifications submitted for one individual that lacked
time certifications during the audit were prepared in an untimely manner, the costs remain
questioned as being certified untimely. The questioned personnel costs which lacked timely
certifications or charges to the incorrect award have remained questioned in the draft report
because the awardee did not provide documentation supporting that these personnel worked on
the respective NSF funded projects. In addition, because documentation supporting the



                                               31
unsupported cost sharing was not provided it remained questioned. Also, no mention was made
of the final certification of cost sharing for Award No. ESI-9634048. Accordingly, the draft
report will contain the questioned costs discussed at the exit conference with the exception of the
consultant costs.




                                                32
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

     Internet
     www.oig.nsf.gov

     Email Hotline
     oig@nsf.gov

     Telephone
     703-292-9158

     Toll-Free Anonymous Hotline
     1-800-428-2189

     Fax
     703-292-9158

     Mail
     Office of Inspector General
     National Science Foundation
     4201 Wilson Blvd., Suite 1135
     Arlington, VA 22230




                 39
